Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 2/26/2021 deponent caused to be served 3 copy(s) of the within
Affirmation in Opposition to Petition for a Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery and
Email
KAREN R. KING
Counsel of Record for Petitioner
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019
(212) 373-3000
kking@paulweiss.com

Sworn to me this
Friday, February 26, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Narkis Aliza Golan v. Isacco Jacky Saada
Docket/Case No:
Index: 20-1034

